Lo
I

C@OCKLE

2311 Douglas Street . E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B 5 t ele contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-297
TRANS UNION LLC, INC.,
Petitioner,
v.
SERGIO L. RAMIREZ,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the RESPONDENT’S BRIEF IN
OPPOSITION in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 7682 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 6th day of November, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

ems | Kerce. Q.Llaoo Qudineh Chl

My Comm. Exp. September 5, 2023

 

Notary Public Affiant

40309
